HHS/OIG-Audit--"Audit of Medicare Contractor's Segmented Pension Cost, Blue Cros and Blue Shield of Michigan, Inc., (A-07-91-00471)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicare Contractor's Segmented Pension Cost, Blue Cross and Blue
Shield of Michigan, Inc.," (A-07-91-00471)
June 2, 1992
Complete
Text of Report is available in PDF format (2.11 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that Blue Cross and Blue Shield of Michigan,
Inc. (intermediary) understated Medicare's pension assets by $4.4 million in the
updating of the Medicare segment assets from 1986 through 1990. The understatement
occurred because the intermediary (1) recognized only parts of the annual asset
gains and losses and (2) did not adjust for distortions caused by participant transfers
in and out of the Medicare segment. We recommended that the intermediary increase
the Medicare segment pension assets by an additional $4.4 million as of January
1990. Intermediary and Health Care Financing Administration officials concurred.